No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL ANDREW GARY
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
BRIAN C. RABBITT
Acting Assistant Attorney
General
ERIC J. FEIGIN
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
SCOTT A.C. MEISLER
THOMAS E. BOOTH
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether a defendant who pleaded guilty to possessing a firearm as a felon, in violation of 18 U.S.C.
922(g)(1) and 924(a), is automatically entitled to plainerror relief if the district court did not advise him that
one element of that offense is knowledge of his status as
a felon, regardless of whether he can show that the district court’s error affected the outcome of the proceedings.

(I)

RELATED PROCEEDINGS

United States District Court (D. S.C.):
United States v. Gary, No. 17-CR-809 (July 30, 2018)
United States Court of Appeals (4th Cir.):
United States v. Gary, No. 18-4578 (Mar. 25, 2020)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statutory provisions and rule involved....................................... 1
Statement ...................................................................................... 2
Reasons for granting the petition ............................................... 8
A. The court of appeals’ decision is wrong .......................... 9
1. The error in respondent’s plea colloquy did not
affect substantial rights ............................................... 9
2. The error in respondent’s plea colloquy did not
seriously affect the fairness, integrity, or public
reputation of judicial proceedings ............................ 18
B. The question presented warrants this Court’s
review ............................................................................... 21
Conclusion ................................................................................... 25
Appendix A — Court of appeals opinion (Mar. 25, 2020) ..... 1a
Appendix B — Court of appeals order (July 7, 2020) ......... 24a
Appendix C — Statutory provisions and rule...................... 33a
TABLE OF AUTHORITIES

Cases:
Blackledge v. Allison, 431 U.S. 63 (1977) ............................ 15
Bousley v. United States, 523 U.S. 614 (1998) .............. 16, 17
Boykin v. Alabama, 395 U.S. 238 (1969) ............................. 18
Head v. Hargrave, 105 U.S. 45 (1882) ................................. 10
Henderson v. Morgan, 426 U.S. 637 (1976) ........................ 16
Henderson v. United States, 568 U.S. 266 (2013) ................ 9
Johnson v. United States, 520 U.S. 461 (1997) ............. 19, 20
McCarthy v. United States, 394 U.S. 459 (1969) ................ 13
McCoy v. Louisiana, 138 S. Ct. 1500 (2018) ....................... 14
Neder v. United States, 527 U.S. 1 (1999) ............... 12, 13, 19
Parker v. Matthews, 567 U.S. 37 (2012) .............................. 10
(III)

IV
Cases—Continued:

Page

Puckett v. United States, 556 U.S. 129 (2009) ........ 10, 15, 20
Rehaif v. United States, 139 S. Ct. 2191
(2019) .............................................................3, 5, 9, 10, 11, 23
United States v. Balde, 943 F.3d 73 (2d Cir. 2019) ............ 21
United States v. Bates, 960 F.3d 1278 (11th Cir. 2020) ..... 21
United States v. Burghardt, 939 F.3d 397
(1st Cir. 2019), cert. denied, 140 S. Ct. 2550 (2020) ......... 21
United States v. Coleman, 961 F.3d 1024
(8th Cir. 2020) .......................................................... 17, 21, 22
United States v. Cotton, 535 U.S. 625 (2002) ................ 19, 20
United States v. Davila, 569 U.S. 597 (2013) ...................... 13
United States v. Dominguez Benitez,
542 U.S. 74 (2004) ...................................................... passim
United States v. Gonzalez-Lopez, 548 U.S. 140 (2006) ...... 12
United States v. Hobbs, 953 F.3d 853 (6th Cir. 2020),
petition for cert. pending, No. 20-171
(filed Aug. 13, 2020) ............................................................ 21
United States v. Langley, 62 F.3d 602
(4th Cir. 1995), cert. denied, 516 U.S. 1083 (1996),
abrogated by Rehaif v. United States,
139 S. Ct. 2191 (2019) ........................................................... 3
United States v. Lavalais, 960 F.3d 180
(5th Cir. 2020), petition for cert. pending,
No. 20-5489 (filed Aug. 20, 2020) ........................... 10, 21, 22
United States v. Lockhart, 947 F.3d 187
(4th Cir. 2020) ........................................................................ 5
United States v. Marcus, 560 U.S. 258 (2010) ................ 9, 18
United States v. Olano, 507 U.S. 725 (1993) ........... 6, 7, 8, 10
United States v. Sanabria-Robreno,
819 Fed. Appx. 80 (3d Cir. 2020) ....................................... 21
United States v. Trujillo, 960 F.3d 1196
(10th Cir. 2020) ........................................................ 14, 21, 22

V
Cases—Continued:

Page

United States v. Vonn, 535 U.S. 55 (2002) .......................... 13
United States v. Williams, 946 F.3d 968
(7th Cir. 2020) ...................................................................... 21
Weaver v. Massachusetts, 137 S. Ct. 1899 (2017) ... 12, 14, 15
Statutes and rules:
18 U.S.C. 922(g) ..................................................... 3, 5, 22, 33a
18 U.S.C. 922(g)(1) ..............................................2, 3, 9, 10, 33a
18 U.S.C. 924(a)(2) .................................... 2, 3, 5, 9, 10, 22, 34a
Fed. R. App. P. 28(j) ................................................................ 5
Fed. R. Crim. P.:
Rule 11 .............................................................................. 13
Rule 11(b) ........................................................................... 3
Rule 52(b) ................................................................... 9, 35a
Miscellaneous
United States Sentencing Commission, Quick Facts,
Felon in Possession of a Firearm (2019),
https://www.ussc.gov/sites/default/files
/pdf/research-and-publications/quickfacts/Felon_In_Possession_FY19.pdf
(last visited Oct. 5, 2020) ................................................. 23

In the Supreme Court of the United States
No.
UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL ANDREW GARY
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

OPINIONS BELOW

The opinion of the court of appeals (App., infra, 1a23a) is reported at 954 F.3d 194. The order of the court
of appeals denying rehearing (App., infra, 24a-32a) is
reported at 963 F.3d 420.
JURISDICTION

The judgment of the court of appeals was entered on
March 25, 2020. A petition for rehearing was denied on
July 7, 2020. The jurisdiction of this Court is invoked
under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS AND RULE INVOLVED

The pertinent statutory provisions and rule are reprinted in the appendix to this petition. App., infra,
33a-35a.

(1)

2
STATEMENT

Following a guilty plea in the United States District
Court for the District of South Carolina, respondent
was convicted on two counts of possessing a firearm as
a felon, in violation of 18 U.S.C. 922(g)(1) and 924(a)(2).
App., infra, 3a. He was sentenced to 84 months of imprisonment, to be followed by three years of supervised
release. Judgment 2-3. The court of appeals vacated
and remanded. See App., infra, 1a-23a.
1. On January 17, 2017, respondent was driving with
his cousin when police pulled them over after seeing respondent run a red light. C.A. J.A. 43; see App., infra,
2a. Respondent volunteered that he was driving on a
suspended license, and was placed under arrest. C.A.
J.A. 43-44; see App., infra, 2a. During an inventory
search of his car, officers found a loaded gun and nine
grams of marijuana. App., infra, 2a. Respondent admitted to possessing both, and was charged under state
law with possession of a firearm by a convicted felon.
Ibid.
Five months later, police encountered respondent
and his cousin outside a motel room during a routine patrol. App., infra, 2a. The officers smelled marijuana as
they approached the men, who entered a car as the officers neared. Ibid. The police observed that respondent’s cousin had a marijuana cigarette in his lap. Ibid.
Respondent and his cousin each consented to a personal
search, and officers found large amounts of cash on both
respondent and his cousin and a digital scale in his
cousin’s pocket. Ibid. The officers then obtained permission to search the car. Id. at 3a. During that search,
they discovered a stolen firearm, ammunition, and a
large amount of marijuana. Ibid. Respondent admitted
that the firearm was his, and was arrested and charged

3
under state law with possession of a stolen firearm.
Ibid.
2. A federal grand jury in the District of South Carolina indicted respondent on two counts of possessing a
firearm as a felon, in violation of 18 U.S.C. 922(g)(1) and
924(a)(2). App., infra, 3a. The state charges were subsequently dropped, and respondent elected to plead
guilty to the two federal charges without a plea agreement. Id. at 3a & n.1.
a. During the plea colloquy required by Federal
Rule of Criminal Procedure 11(b), the district court advised respondent (among other things) that if he proceeded to trial, the government would be required to
prove four elements: (1) respondent had “been convicted of a crime punishable by imprisonment for a term
exceeding one year”; (2) he then “possessed a firearm”;
(3) the firearm had “travelled in interstate or foreign
commerce”; and (4) respondent “did so knowingly; that
is that [respondent] knew the item was a firearm and
[his] possession of that firearm was voluntar[y] and intentional.” App., infra, 3a (citation omitted; second set
of brackets in original); see C.A. J.A. 31. Consistent
with the courts of appeals’ uniform interpretation of the
felon-in-possession offense at that time, the district
court did not advise respondent that the government
would also need to prove that he was aware that he was
a felon. App., infra, 3a; see United States v. Langley,
62 F.3d 602, 604-605 (4th Cir. 1995) (en banc) (holding
that knowledge of status is not an element of an offense
under 18 U.S.C. 922(g) and 924(a)(2)), cert. denied, 516
U.S. 1083 (1996), abrogated by Rehaif v. United States,
139 S. Ct. 2191 (2019); see also Rehaif, 139 S. Ct. at 2195
(noting prior uniformity).

4
Following the district court’s description of the
charges, the prosecutor summarized the evidence supporting them. C.A. J.A. 43-46. She stated that with respect to each felon-in-possession count, respondent had
admitted to possessing the firearm in question, that
each firearm had traveled in interstate commerce, and
that at the time of each arrest respondent had several
prior felony convictions for which he had not been pardoned. Id. at 44, 46. Respondent agreed with the prosecutor’s summary of the facts. Id. at 47. The court accepted respondent’s plea. App., infra, 3a.
b. The Probation Office’s presentence report recounted that at the time of his offense conduct, respondent had three final felony convictions under South Carolina law. Presentence Investigation Report (PSR)
¶¶ 30, 33; C.A. J.A. 111-113. First, on April 7, 2014, respondent had been convicted of second-degree burglary. PSR ¶ 30; C.A. J.A. 111. For that offense, he had
been sentenced to an eight-year term of imprisonment
and two years of probation, with the final five years of
his prison sentence suspended upon his service of three
years (including time already served). Ibid. Second, on
November 9, 2015, while still on probation for his burglary conviction, respondent had been convicted on two
counts of second-degree assault and battery. PSR ¶ 33;
C.A. J.A. 112-113. He was sentenced to concurrent
three-year terms of imprisonment on each count. Ibid.
The state court also revoked respondent’s probation on
the burglary conviction and imposed a further threeyear prison sentence, to be served concurrently with the
assault-and-battery sentences. PSR ¶ 30; C.A. J.A. 111112.
Respondent did not dispute any of the facts in the
presentence report about his prior convictions, and he

5
acknowledged in his sentencing memorandum that he
“was aware that he was not supposed to have a weapon.”
C.A. J.A. 59; see ibid. (asserting that a lighter sentence
was warranted because he “simply had [the weapon] for
his protection”). Respondent likewise acknowledged
during allocution that “I know I was wrong for having
the firearm.” Id. at 81. The district court sentenced
respondent to concurrent terms of 84 months of imprisonment on each count. App., infra, 3a.
3. Respondent appealed his sentence, but did not
challenge the conviction itself. While respondent’s appeal was pending, this Court decided Rehaif v. United
States, supra. In that decision, the Court concluded
that the courts of appeals had erred in their interpretation of the mens rea required to prove unlawful firearm
possession under 18 U.S.C. 922(g) and 924(a)(2). Abrogating the precedent of every circuit, the Court held
that the government not only “must show that the defendant knew he possessed a firearm,” but “also that he
knew he had the relevant status”—e.g., that he was a
felon—“when he possessed it.” 139 S. Ct. at 2194; see
United States v. Lockhart, 947 F.3d 187, 196 (4th Cir.
2020) (en banc) (recognizing abrogation).
Nearly four months later, respondent submitted a
letter under Federal Rule of Appellate Procedure 28(j)
citing Rehaif. Although respondent had not previously
challenged or sought to withdraw his guilty plea, either
in the district court or in his opening or reply briefs on
appeal, respondent asserted that Rehaif “is extremely
relevant to his case” because his indictment had not alleged that he was aware of his status as a felon, and because he “was not informed of all the elements of the
offenses of conviction at his plea colloquy.” C.A. Doc.
36, at 1-2 (Oct. 9, 2019).

6
4. After inviting the parties to file supplemental
briefs addressing the relevance of Rehaif to respondent’s appeal, the court of appeals vacated his convictions
and remanded to the district court for further proceedings. App., infra, 1a-23a.
Because respondent had not challenged the validity
of his plea in the district court, the court of appeals recognized that its review was subject to the plain-error
framework that this Court described in United States v.
Olano, 507 U.S. 725 (1993). See App., infra, 5a. The
court of appeals explained that, under Olano, “a defendant must show that: (1) an error occurred; (2) the error
was plain; and (3) the error affected his substantial
rights.” Ibid. (citing Olano, 507 U.S. at 732). The court
further recognized that even where a defendant makes
all three showings, a court of appeals may correct the
error only “if the error ‘seriously affects the fairness,
integrity or public reputation of judicial proceedings.’ ”
Ibid. (quoting Olano, 507 U.S. at 732).
The court of appeals took the view that the omission
of the knowledge-of-status element from respondent’s
plea colloquy, in and of itself, conclusively established
all four of those requirements. See App., infra, 5a (“We
answer today * * * ‘whether a standalone Rehaif error
requires automatic vacatur of a defendant’s guilty
plea.’ ”) (brackets and citation omitted). * As to the first
two, it accepted the government’s concession that the
district court had erred by not advising respondent that
knowledge of his status as a felon was an element of the
The court of appeals declined to address whether respondent
would be independently entitled to relief on the ground that his indictment was defective for failure to allege that respondent knew he
was a felon at the time he possessed the firearms. See App., infra,
6a n.4.
*

7
charged offenses, and that the error had become plain
following this Court’s decision in Rehaif. Id. at 8a-9a.
And notwithstanding that “numerous circuits applying
Olano’s plain error standard have determined that
there is no effect on a defendant’s substantial rights
where the evidence shows that the defendant knew of
his status as a prohibited person at the time of his gun
possession,” id. at 7a; see ibid. & n.6 (collecting cases
from seven other circuits), the court concluded that the
other two requirements were satisfied as well.
The court of appeals recognized that as a general
matter, “to establish that a Rule 11 error has affected
substantial rights” under the third element of the plainerror test, “a defendant must ‘show a reasonable probability that, but for the error, he would not have entered
the plea and satisfy the judgment of the reviewing
court, informed by the entire record, that the probability of a different result is sufficient to undermine the
confidence in the outcome of the proceeding.’ ” App., infra, 11a (quoting United States v. Dominguez Benitez,
542 U.S. 74, 83 (2004)) (brackets, ellipsis, and internal
quotation marks omitted). But the court characterized
the particular error here as “structural” error and applied circuit precedent holding that structural error inherently satisfies the third requirement for plain-error
relief, irrespective of whether the defendant can show
case-specific prejudice. Id. at 16a; see id. at 15a-19a.
The court of appeals further concluded that the error
here satisfied Olano’s fourth requirement—that “the
error seriously affect affect[s] the fairness, integrity or
public reputation of judicial proceedings,” Olano, 507
U.S. at 736. See App., infra, 19a-22a. The court declared that “justice is not only a result,” and that “the

8
integrity of our judicial process demands that each defendant who pleads guilty receive the process to which
he is due.” Id. at 20a, 22a. The court stated that it could
not “envision a circumstance where, faced with such
constitutional infirmity and deprivation of rights as presented in this case, [it] would not exercise [its] discretion to recognize the error and grant relief.” Id. at 22a.
5. The court of appeals denied the government’s petition for rehearing en banc. App., infra, 24a-32a.
Judge Wilkinson, joined by Judges Niemeyer, Agee,
Quattlebaum, and Rushing, explained that he “concur[red] in the denial of rehearing en banc for one reason and one reason only”—namely, that “[t]he panel’s
holding is so incorrect and on an issue of such importance that I think the Supreme Court should consider it promptly.” Id. at 25a; see id. at 25a-32a.
REASONS FOR GRANTING THE PETITION

The Fourth Circuit erred in concluding that “a
standalone Rehaif error requires automatic vacatur of
a defendant’s guilty plea” on plain-error review, even
when the error had no practical effect. App., infra, 5a
(brackets and citation omitted). Where a defendant has
not shown a reasonable probability that he would in fact
have gone to trial had the district court informed him of
the requirement to prove knowledge of status, that
omission did not “affect[] his substantial rights.”
United States v. Olano, 507 U.S. 725, 736 (1993). Nor
does such an omission “seriously [undermine] the fairness, integrity, or public reputation of judicial proceedings,” ibid., when the record as a whole demonstrates
that the defendant knew he was a felon. The Fourth
Circuit’s approach—which effectively eliminates both
the third and fourth requirements for plain-error
relief—conflicts with the approach of every other court

9
of appeals to address the issue. And because guilty
pleas to violations of 18 U.S.C. 922(g)(1) and 924(a)(2)
are among the most common sources of criminal convictions in the federal system, the decision below would, if
allowed to stand, result in the vacatur of a substantial
number of convictions in the Fourth Circuit. This Court
should accordingly grant the petition for a writ of certiorari and reverse the decision below.
A. The Court Of Appeals’ Decision Is Wrong

As the court of appeals recognized (App., infra, 5a),
because respondent raised his claim for the first time on
appeal, it is reviewable only for plain error. See Fed. R.
Crim. P. 52(b). To prevail on plain-error review, respondent must show (1) “an error” (2) that is “clear or
obvious, rather than subject to reasonable dispute,”
(3) that “affected [his] substantial rights,” and (4) that
“seriously affect[ed] the fairness, integrity or public
reputation of judicial proceedings.” United States v.
Marcus, 560 U.S. 258, 262 (2010) (citation and internal
quotation marks omitted). This Court’s decision in Rehaif v. United States, 139 S. Ct. 2191 (2019), suffices to
establish the first two requirements, because it shows
an error that was clear or obvious at the “the time of
appellate review.” Henderson v. United States, 568
U.S. 266, 269 (2013). But the court of appeals erred
twice over in deeming the third and fourth requirements—which are case-specific—to both inherently be
satisfied as well.
1. The error in respondent’s plea colloquy did not affect
substantial rights

a. This Court has explained that to satisfy the third
plain-error requirement—that an error affected “sub-

10
stantial rights”—a defendant “ordinar[ily]” must establish a reasonable probability that the error “ ‘affected
the outcome of the district court proceedings.’ ” Puckett
v. United States, 556 U.S. 129, 135 (2009) (quoting
Olano, 507 U.S. at 734). Accordingly, where a defendant seeks “reversal of his conviction after a guilty plea”
based on an error in the plea colloquy, he “must * * *
satisfy the judgment of the reviewing court, informed
by the entire record, that the probability of a different
result is ‘sufficient to undermine confidence in the outcome’ of the proceeding.” United States v. Dominguez
Benitez, 542 U.S. 74, 83 (2004) (citation omitted). Specifically, he “must show a reasonable probability that,
but for the error, he would not have entered the plea.”
Ibid.
No sound reason exists to presume such a reasonable
probability whenever a district court has omitted to advise a defendant that conviction for possessing a firearm
as a felon, in violation of 18 U.S.C. 922(g)(1) and
924(a)(2), requires proof that he knew his felon status.
To the contrary, such an omission is highly unlikely to
have made any difference to the defendant’s plea decision. “Convicted felons typically know they’re convicted
felons.” United States v. Lavalais, 960 F.3d 180, 184
(5th Cir. 2020), petition for cert. pending, No. 20-5489
(filed Aug. 20, 2020). And a jury, which can bring into
deliberations its “own general knowledge,” Head v.
Hargrave, 105 U.S. 45, 49 (1882), and its “commonsense
understanding,” Parker v. Matthews, 567 U.S. 37, 44
(2012) (per curiam), is likely to recognize that someone
convicted of a felony knew about it. See Rehaif, 139
S. Ct. at 2209 (Alito, J., dissenting) (“Juries will rarely
doubt that a defendant convicted of a felony has forgotten that experience.”). Although it is not inconceivable

11
that a defendant who previously received a sentence of
less than a year might be unaware that a longer sentence had been possible, see id. at 2198, the various
stages of the criminal process that led to the earlier
conviction—including arraignment, plea or trial, and
sentencing—and consultations with counsel during
those proceedings will typically have provided ample
notice of the maximum sentence. Accordingly, a defendant who subsequently is willing to admit all of the
other elements of a felon-in-possession charge—including
the fact of his felon status—will rarely view the
knowledge-of-status element as a reason to go to trial.
This case exemplifies the point. The record as a
whole showed that respondent had served multiple
years in prison for his prior felony convictions—a fact
that no jury could realistically believe that he had forgotten. See p. 4, supra. Indeed, respondent acknowledged in his sentencing memorandum that he had been
“aware that he was not supposed to have a weapon,”
C.A. J.A. 59—a degree of knowledge even greater than
what Rehaif requires and that necessarily subsumes
knowledge of felon status. See id. at 81 (“I know I was
wrong for having the firearm.”). Moreover, by the time
of the second arrest at issue here, respondent had already been charged as a felon-in-possession under state
law as a result of the arrest five months earlier, driving
home to him that he had a prior felony conviction. See
App., infra, 2a. Given that record, this is not the rare
case in which a defendant could carry his affirmative
burden to show a reasonable probability that the district court’s failure to advise him of the knowledge-ofstatus element affected his plea decision. And respondent has never even tried to make such a showing.

12
b. The court of appeals, however, exempted respondent from making such a showing. In its view, Rehaif error need not “be reviewed for prejudice under
United States v. Olano * * * because such an error is
structural.” App., infra, 5a (brackets, citation, and internal quotation marks omitted). That view cannot be
squared with this Court’s precedents.
A “structural error” is a constitutional error that
“ ‘affects the framework within which the trial proceeds,’ rather than being ‘simply an error in the trial
process itself.’ ” Weaver v. Massachusetts, 137 S. Ct.
1899, 1907 (2017) (brackets and citation omitted). Although most constitutional errors, even when preserved
in the trial court, can be disregarded where “the government can show beyond a reasonable doubt that the
error complained of did not contribute to the verdict obtained,” ibid. (citation and internal quotation marks
omitted), structural errors cannot “be deemed harmless
beyond a reasonable doubt.” Ibid. For two independent reasons, the structural-error doctrine does not support the Fourth Circuit’s excision of the requirement
that a defendant like respondent show a reasonable
probability that the omission from the plea colloquy affected his decision to plead.
First and foremost, the error here is not structural.
This Court has found structural errors “only in a very
limited class of cases.” Neder v. United States, 527 U.S.
1, 8 (1999) (citations and internal quotation marks omitted). That limited class—which includes, for example,
denial of counsel of choice, denial of self-representation,
denial of a public trial, and denial of a reasonable-doubt
instruction, see United States v. Gonzalez-Lopez, 548
U.S. 140, 148-149 (2006)—does not include the omission
of the knowledge-of-status element from a plea colloquy

13
in a felon-in-possession case. The Court has observed
that the erroneous omission of one of the plea-colloquy
warnings required by Federal Rule of Criminal Procedure 11 is not even “colorably structural,” Dominguez
Benitez, 542 U.S. at 81 n.6, and the error here is analogous to those and others as to which “relief for error is
tied in some way to prejudicial effect,” id. at 81.
In the context of guilty pleas, the Court has held that
review for prejudicial effect is appropriate for a violation of the bar on judicial participation in plea negotiations, see United States v. Davila, 569 U.S. 597, 605, 611
(2013), a failure to advise the defendant that he would
be unable to withdraw his plea if he was dissatisfied
with his sentence, see Dominguez Benitez, 542 U.S. at
82-83, and a failure to advise the defendant that he
would be entitled to the assistance of counsel if he proceeded to trial, see United States v. Vonn, 535 U.S. 55,
60 (2002). In each case, the Court held that notwithstanding the deviation from the requirements of Federal Rule of Criminal of Procedure 11—which are designed to ensure pleas are made knowingly and intelligently, see McCarthy v. United States, 394 U.S. 459, 465
(1969)—it was appropriate to ask whether, “but for the
error, [the defendant] would not have entered the plea.”
Dominguez Benitez, 542 U.S. at 76. The error here is
not meaningfully different simply because the omitted
advisement concerned an element of the offense. To the
contrary, the Court has held that harmless-error review
applies even to the omission of an offense element from
jury instructions at trial, thereby recognizing that the
absence of a finding of or admission on that element
does not automatically require reversal. See Neder,
527 U.S. at 8-20.

14
Contrary to the court of appeals’ conclusion, App.,
infra, 15a-19a, none of the features that sometimes justify classifying an error as “structural” is present here.
As with other plea-colloquy errors, this is not a circumstance where “the effects of the error are simply too
hard to measure,” “the error always results in fundamental unfairness,” or “the right at issue is not designed to protect the defendant from erroneous conviction but instead protects some other interest.” Weaver,
137 S. Ct. at 1908. The likely effect on the defendant’s
plea decision of omitting an advisement of an offense element can be measured by (among other things) looking
to the “government’s evidence” and the “defendant’s
admissions,” United States v. Trujillo, 960 F.3d 1196,
1207 (10th Cir. 2020), and will often be even easier to
evaluate than the omission of an advisement about a
matter whose importance depends on the defendant’s
own unique priorities, see, e.g., Dominguez Benitez, 542
U.S. at 83-84 (requiring prejudice analysis of advisement about circumstances allowing for plea withdrawal). Similarly, a defendant who cannot show a reasonable probability that an advisement about the offense element would have led him to insist on a trial has
no more basis to complain of “unfairness”—let alone
“fundamental unfairness”—than any other defendant
whose plea colloquy was incomplete. And although the
court of appeals correctly noted a defendant’s “autonomy” interest in ensuring that he alone decides whether
to plead guilty, App., infra, 16a, the plea decision does
not become someone else’s simply because the colloquy
was deficient. Cf. McCoy v. Louisiana, 138 S. Ct. 1500,
1508 (2018) (distinguishing a structural error arising
from a lawyer’s decision to concede guilt over his cli-

15
ent’s objection from a more mundane “strategic dispute[] about whether to concede an element of a charged
offense”).
In any event, even if the error here were structural,
that would not excuse respondent from satisfying the
prejudice requirement for plain-error relief. This Court
has held that structural errors warrant reversal “without regard to the mistake’s effect on the proceeding”
only in the context of “preserved error.” Dominguez
Benitez, 542 U.S. at 81 (emphasis added). In the context
of forfeited error, in contrast, the Court has repeatedly
“declined to resolve whether ‘structural’ errors * * *
automatically satisfy the third prong of the plain-error
test.” Puckett, 556 U.S. at 140. In concluding that
plain-error review required no prejudice analysis if the
error here were structural, the Fourth Circuit applied
its own precedent, not this Court’s. See App., infra,
15a-16a. But “[d]espite its name, the term ‘structural
error’ carries with it no talismanic significance as a doctrinal matter.” Weaver, 137 S. Ct. at 1910.
Giving effect to the label in a new context, like plainerror review, requires an analysis of “the systemic costs
of remedying the error” at issue, Weaver, 137 S. Ct. at
1912 (declining to presume prejudice for “structural”
error involving public-trial right in context of ineffectiveassistance-of-counsel claim). Here, the many systemic
benefits of guilty pleas—prompt resolution of criminal
charges, conservation of judicial and prosecutorial resources, and the potential for more favorable sentencing terms—“can be secured * * * only if dispositions
by guilty plea are accorded a great measure of finality.”
Blackledge v. Allison, 431 U.S. 63, 71 (1977). Those benefits would be substantially curtailed if a defendant
were automatically entitled to relief based on a later

16
statutory-interpretation decision that would not actually have affected his decision to enter the plea.
c. The court of appeals attempted to ground its
automatic-vacatur rule in three decisions of this Court
involving deficient guilty pleas—Henderson v. Morgan,
426 U.S. 637 (1976), Bousley v. United States, 523 U.S.
614 (1998), and Dominguez Benitez, supra. See App.,
infra, 11a-12a. None of those decisions supports its conclusion that the sort of error at issue here is a structural
error, let alone one that triggers automatic relief on
plain-error review.
In Henderson, this Court held that a particular state
defendant’s guilty plea to second-degree murder was involuntary because he had not been advised that conviction required that he have the intent to cause the death
of the victim. 426 U.S. at 644-647. Because Henderson
involved a state-court conviction on collateral review,
this Court had no occasion to address the requirements
to show plain error in the federal system. In any event,
if anything, Henderson indicates that the omission of an
element from a plea colloquy, even when it amounts to
constitutional error, is not structural. In explaining
why granting relief in that case would not “invite countless collateral attacks on judgments entered on pleas of
guilty,” the Court noted, among other things, that the
defendant’s “unusually low mental capacity * * * forecloses the conclusion that the error was harmless beyond a reasonable doubt, for it lends at least a modicum
of credibility to defense counsel’s appraisal of the homicide as a manslaughter rather than a murder.” Id. at
646-647. That statement suggests that similar claims by
other defendants could be rejected on harmless-error
grounds—the hallmark of ordinary, non-structural error.

17
The court of appeals’ reliance on Bousley was similarly misplaced. Bousley concerned the showing that a
prisoner must make to raise for the first time on collateral review a claim that his plea was not knowingly and
intelligently made. 523 U.S. at 616, 622-624. The prisoner contended “that neither he, nor his counsel, nor the
[district] court correctly understood the essential elements of the crime with which he was charged,” and the
Court stated that, “[w]ere this contention proved, petitioner’s plea would be * * * constitutionally invalid.”
Id. at 618-619. The Court, however, “did not discuss
plain error or structural error,” United States v. Coleman, 961 F.3d 1024, 1030 n.4 (8th Cir. 2020), much less
indicate that the error that the prisoner claimed was of
the latter type. And the showing that Bousley required
for the prisoner to obtain collateral relief notwithstanding his earlier procedural default—a showing of “actual
innocence,” such that “in light of all the evidence, it is
more likely than not that no reasonable juror would
have convicted him,” 523 U.S. at 623 (citations and internal quotation marks omitted)—would necessarily
suffice to show case-specific prejudice.
Finally, Dominguez Benitez likewise does not support the court of appeals’ automatic-vacatur approach.
Indeed, that approach is a departure from the holding
of Dominguez Benitez, under which a defendant who
forfeited a “claim of Rule 11 error” at his plea colloquy
is entitled to plain-error relief only if he “show[s] a reasonable probability that, but for the error, he would not
have entered the plea.” 542 U.S. at 76. The court of
appeals pointed (App., infra, 11a) to a footnote in
Dominguez Benitez where the Court “contrast[ed]” the
issue in that case (involving a plea-colloquy error) with
“the constitutional question whether a defendant's

18
guilty plea was knowing and voluntary,” Dominguez
Benitez, 542 U.S. at 84 n.10. But in that footnote, the
Court simply disavowed any “suggest[ion]” that a conviction like the one in Boykin v. Alabama, 395 U.S. 238
(1969)—in which “the record * * * contains no evidence
that a defendant knew of the rights he was putatively
waiving”—“could be saved even by overwhelming evidence that the defendant would have pleaded guilty regardless.” Dominguez Benitez, 542 U.S. at 84 n.10. The
footnote has no bearing on a case like this, which does
not involve a conviction like the one in Boykin, where
the “silent record” contained no indication that the defendant had been advised of, or knowingly waived, any
of the constitutional rights that he gave up through his
plea. 395 U.S. at 243; see id. at 239. It instead involves
only a discrete plea-colloquy error akin to the one that
Dominguez Benitez itself recognizes to be amenable to
prejudice analysis.
2. The error in respondent’s plea colloquy did not seriously affect the fairness, integrity, or public reputation of judicial proceedings

Even if omission of the knowledge-of-status element
from a guilty-plea colloquy invariably satisfied the “substantial rights” requirement of plain-error review,
plain-error relief would still be inappropriate unless
“the error seriously affect[ed] the fairness, integrity, or
public reputation of judicial proceedings.” Marcus, 560
U.S. at 265 (citation and internal quotation marks omitted). The court of appeals erred in suggesting that this
fourth requirement for plain-error relief will almost always (or perhaps even always) be met in cases where
the knowledge-of-status element was omitted from the
plea colloquy. See App., infra, 21a-22a. To the contrary, in this case—as will be true in many cases—the

19
record affirmatively refutes any suggestion that the error affected the fairness or integrity of these proceedings.
This Court has twice made clear that even if an error
is structural, and even if structural errors automatically
satisfy the substantial-rights component of the plainerror test, the fourth plain-error requirement can by itself preclude relief. In Johnson v. United States, 520
U.S. 461 (1997), a defendant who had forfeited his objection to the omission of an offense element from the
jury instructions argued that the error was structural
and automatically satisfied the third plain-error requirement. Id. at 468-469. Although the Court would
hold in a later case that such an error is not structural,
see Neder, 527 U.S. at 8-20, it assumed away that issue
in Johnson and held that relief was in any event foreclosed by the fourth plain-error requirement, see 520
U.S. at 469-470. Noting the “overwhelming” and “essentially uncontroverted” evidence of the omitted offense element, the Court found “no basis for concluding
that the error seriously affected the fairness, integrity
or public reputation of judicial proceedings.” Id. at 470
(brackets, citation, and internal quotation marks omitted). And the Court similarly relied on the fourth plainerror requirement to deny relief in United States v. Cotton, 535 U.S. 625 (2002), where the defendant claimed
that the omission of an allegation of drug quantity from
an indictment was structural error and inherently prejudicial. Id. at 633-634.
The fourth plain-error requirement similarly forecloses relief in this case, irrespective of whether respondent’s bare claim of Rehaif error is sufficient to
satisfy the prejudice component of the plain-error test.
Here, as in Johnson, the record provides “no basis for

20
concluding that the error seriously affected the fairness, integrity or public reputation of judicial proceedings.” 520 U.S. at 470 (brackets and internal quotation
marks omitted). Respondent served multiple years in
prison for his prior felony convictions; admitted in connection with his sentencing that he had known that he
was not supposed to possess a firearm; and, by the time
of the second offense at issue, had already been charged
as a felon-in-possession under state law as a result of
the earlier conduct. See p. 11, supra. Thus, as in Cotton
and Johnson, “[t]he real threat” to the fairness and integrity of judicial proceedings, Cotton, 535 U.S. at 634,
would be to grant relief. Fairness and integrity are impeded, not advanced, by allowing a defendant who has
pleaded guilty to vacate that plea automatically based
on a court’s subsequent addition or clarification of an
offense element that would have been uncontestable in
his case.
The court of appeals failed to provide any sound basis for finding the fourth plain-error requirement to be
satisfied on this record. Indeed, it did not meaningfully
engage with the record at all. Although it nominally
acknowledged that the third and fourth requirements
are distinct, its holding on the latter was premised on
the same process-based rationale that undergirded its
structural-error holding. App., infra, 19a-22a. “We
cannot envision,” the court stated, “a circumstance
where, faced with such constitutional infirmity and deprivation of rights as presented in this case, we would not
exercise our discretion to recognize the error and grant
relief.” Id. at 22a. But this Court has emphasized that
the fourth plain-error requirement “is meant to be applied on a case-specific and fact-intensive basis.” Puckett, 556 U.S. at 142. And the facts here do not call into

21
question that respondent’s convictions rest on the unlawful possession of a firearm when he not only was, but
knew that he was, a felon.
B. The Question Presented Warrants This Court’s Review

The court of appeals’ error “creates a circuit split of
yawning proportions” on a frequently arising issue of
significant practical importance. App., infra, 25a (Wilkinson, J, concurring in the denial of rehearing en
banc). It accordingly warrants this Court’s immediate
review.
1. As the Fourth Circuit recognized (App., infra, 7a
& n.6), its decision conflicts with the approach of every
other court of appeals that has addressed a forfeited Rehaif claim by a defendant who pleaded guilty. With the
exception of the Fourth Circuit, “the circuits have uniformly held that a defendant cannot show an effect on
his substantial rights where the evidence shows that the
defendant knew of his status as a felon at the time of his
gun possession.” Id. at 25a n.* (Wilkinson, J, concurring in the denial of rehearing en banc); see, e.g., United
States v. Burghardt, 939 F.3d 397, 403-405 (1st Cir.
2019), cert. denied, 140 S. Ct. 2550 (2020); United States
v. Balde, 943 F.3d 73, 97 (2d Cir. 2019); Lavalais, 960
F.3d at 187-188 (5th Cir.); United States v. Hobbs, 953
F.3d 853, 857-858 (6th Cir. 2020), petition for cert. pending, No. 20-171 (filed Aug. 13, 2020); United States v.
Williams, 946 F.3d 968, 973-975 (7th Cir. 2020); Coleman, 961 F.3d at 1029 n.3 (8th Cir.); Trujillo, 960 F.3d
at 1205-1207 (10th Cir.); United States v. Bates, 960
F.3d 1278, 1296 (11th Cir. 2020); see also United States
v. Sanabria-Robreno, 819 Fed. Appx. 80, 83-84 (3d Cir.
2020).

22
The Fourth Circuit attempted to minimize the significance of its deviation on the ground that no other circuit had “yet addressed the question of whether this error is a structural error that affects the substantial
rights of the defendant.” App., infra, 8a. But although
other circuits had not considered the issue in depth before the panel’s decision in this case, they now have.
Since the decision here, three courts of appeals—the
Fifth, Eighth, and Tenth Circuits—have expressly rejected the Fourth Circuit’s structural-error holding in
precedential opinions. Lavalais, 960 F.3d at 187-188
(5th Cir.); Coleman, 961 F.3d at 1029 n.3 (8th Cir.); Trujillo, 960 F.3d at 1205-1207 (10th Cir.). And now that
the Fourth Circuit has denied the government’s petition
for rehearing en banc in this case, see App., infra, 24a,
only this Court can resolve the conflict.
2. The circuit conflict concerns an important and recurring issue that warrants immediate review. Any defendant in the Fourth Circuit who entered a guilty plea
to unlawful firearm possession, in violation of 18 U.S.C.
922(g) and 924(a)(2), before Rehaif will be able to rely
on the decision below to vacate his conviction on direct
appeal. The decision here “answer[s] * * * the question
* * * whether a standalone Rehaif error requires automatic vacatur of a defendant’s guilty plea or whether
such error should be reviewed for prejudice under
United States v. Olano” in favor of automatic vacatur
and against prejudice review under Olano. App., infra,
5a (brackets, citation, and internal quotation marks
omitted). And it leaves no discernible room for application of the fourth plain-error requirement in future
cases. Not only does the decision rely on generalized
reasoning to reject the application of that requirement,

23
but the court declares that it “cannot envision a circumstance where, faced with such constitutional infirmity
and deprivation of rights as presented in this case, we
would not exercise our discretion to recognize the error
and grant relief.” Id. at 22a; see id. at 19a-22a.
Even when considered only in relation to claims
based on Rehaif, resolution of the question presented
affects convictions for one of the most frequently
prosecuted federal offenses, a significant number of
which were obtained by guilty plea. See App., infra, 25a
(Wilkinson, J., concurring in the denial of rehearing
en banc) (observing that “[m]any, many cases
await resolution of this question”); see also Rehaif, 139
S. Ct. at 2212-2213 (Alito, J., dissenting); United States
Sentencing Commission, Quick Facts, Felon in Possession of a Firearm (2019), https://www.ussc.gov/sites/
default/files/pdf/research-and-publications/quick-facts/
Felon_ In _Possession_FY19.pdf (reporting that approximately 10% of cases reported to the Sentencing Commission in Fiscal Year 2019 involved convictions under 18
U.S.C. 922(g)). And the implications of the decision below potentially extend beyond Rehaif-related error, to
other circumstances in which this Court, or the court of
appeals, construes a federal criminal statute in a manner that increases the proof required to satisfy the elements of the offense. Those statutory-interpretation
decisions, too, may presage automatic relief for any defendant in the Fourth Circuit who pleaded guilty and
whose case is on direct review, irrespective of whether
the defendant was prejudiced.
Allowing the court of appeals’ rule to remain in effect
would therefore add “major burdens to our system” of
justice. App., infra, 31a (Wilkinson, J., concurring in
the denial of rehearing en banc). The effect of the

24
court’s decision is to unravel final guilty pleas and require a do-over—likely including a trial—in every case.
Such relief is warranted in the minority of cases where
the defendant was in fact prejudiced in his plea decision
and where a failure to correct the error would seriously
affect the fairness, integrity, or public reputation of judicial proceedings. But in the mine run of cases, it is
simply a windfall for the defendant. The court of appeals’ categorical rejection of the final two requirements for plain-error relief eliminates the traditional
tools for separating out those two classes of cases, instead requiring courts to reopen them all indiscriminately. This Court should intervene to put a stop to that
overly burdensome and misguided approach.
3. This case is an ideal vehicle for further review.
The question is squarely presented, was thoroughly
considered below, and provided the sole basis for the
court of appeals’ decision. Furthermore, the government has filed this petition at a time calculated to allow
for the Court to grant certiorari and decide the case on
the merits during the current Term.
As might be expected in light of the Fourth Circuit’s
outlier status, several pending petitions for writs of certiorari implicate the same or related questions. See
Rolle v. United States, No. 20-5499 (filed Aug. 21, 2020);
Lavalais v. United States, No. 20-5489 (filed Aug. 20,
2020); Ross v. United States, No. 20-5404 (filed Aug. 14,
2020); Hobbs v. United States, No. 20-171 (filed Aug. 13,
2020); Sanchez-Rosado v. United States, No. 20-5453
(filed Aug. 6, 2020); Stokeling v. United States, No. 205157 (filed July 9, 2020); Blackshire v. United States,
No. 19-8816 (filed June 22, 2020). As the government
explains in its response in Lavalais, supra (No. 205489), that case would also provide an acceptable, albeit

25
less ideal, vehicle for addressing the question presented, and the Court could grant that petition instead.
Alternatively, the Court could grant both petitions and
consolidate the cases for argument. But given the number of cases that are potentially affected, the Court
should consider and decide the question presented this
Term.
CONCLUSION

The petition for a writ of certiorari should be
granted.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General
BRIAN C. RABBITT
Acting Assistant Attorney
General
ERIC J. FEIGIN
Deputy Solicitor General
BENJAMIN W. SNYDER
Assistant to the Solicitor
General
SCOTT A.C. MEISLER
T HOMAS E. BOOTH
Attorneys

OCTOBER 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4578
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
MICHAEL ANDREW GARY, DEFENDANT-APPELLANT
Argued: Dec. 11, 2019
Decided: Mar. 25, 2020
Appeal from the United States District Court
for the District of South Carolina at Columbia
Joseph F. Anderson, Jr., Senior District Judge
(3:17-cr-00809-JFA-1)
Before:
GREGORY, Chief
THACKER, Circuit Judges.

Judge,

FLOYD,

and

GREGORY, Chief Judge:
Michael Andrew Gary appeals his sentence following
a guilty plea to two counts of possession of a firearm and
ammunition by a person previously convicted of a felony,
in violation of 18 U.S.C. § 922(g)(1). Gary contends that
two recent decisions—the Supreme Court’s decision in
Rehaif v. United States, 139 S. Ct. 2191 (2019), where
the Court held that the government must prove not only
that a defendant charged pursuant to § 922(g) knew he
possessed a firearm, but also that he knew he belonged
to a class of persons barred from possessing a firearm,
(1a)

2a
and this Court’s en banc decision in United States v.
Lockhart, 947 F.3d 187 (4th Cir. 2020), in which this Court
considered the impact of Rehaif on a defendant’s guilty
plea—require that his plea be vacated.
Upon consideration of the parties’ arguments, we
hold that Gary’s guilty plea was not knowingly and intelligently made because he did not understand the essential elements of the offense to which he pled guilty.
Because the court accepted Gary’s plea without giving
him notice of an element of the offense, the court’s error
is structural. We therefore vacate his guilty plea and
convictions and remand the case to the district court for
further proceedings.
I.
On January 17, 2017, Gary was arrested following a
traffic stop for driving on a suspended license. Gary’s
cousin, Denzel Dixon, was a passenger in the vehicle.
During an inventory search of the vehicle, officers recovered a loaded firearm and a small plastic bag containing nine grams of marijuana. Gary admitted to possession of both the gun and marijuana and was charged under state law with possession of a firearm by a convicted
felon.
Five months later, on June 16, 2017, officers encountered Gary and Dixon outside a motel room while patrolling the motel’s parking lot. The officers detected the
odor of marijuana, and as they approached, Gary and
Dixon entered the back seat of a vehicle. Dixon had a
marijuana cigarette in his lap. The men consented to a
personal search, and the officers found large amounts of
cash on both men and a digital scale in Dixon’s pocket.

3a
After receiving permission to search the vehicle, the officers found a stolen firearm, ammunition, “a large
amount” of marijuana in the trunk, and baggies inside a
backpack. J.A. 105. Gary claimed the gun was his
and admitted that he regularly carried a firearm for protection. Dixon claimed ownership of the marijuana.
Gary was arrested and charged under state law with
possession of a stolen handgun. Gary had, at the time
of his arrests, a prior felony conviction for which he had
not been pardoned.
Gary was indicted in federal court and later pled
guilty without a plea agreement to two counts of possession of a firearm and ammunition after having been convicted of a felony, in violation of 18 U.S.C. §§ 922(g)(1)
and 924(a)(2).1 During his Rule 11 plea colloquy, the
government recited facts related to each of his firearm
possession charges. The court also informed Gary of
the elements it understood the government would be required to prove if he went to trial: (1) that Gary had
“been convicted of a crime punishable by imprisonment
for a term exceeding one year;” (2) that he “possessed a
firearm;” (3) that the firearm “travelled in interstate or
foreign commerce;” and (4) that he “did so knowingly;
that is that [he] knew the item was a firearm and [his]
possession of that firearm was voluntarily [sic] and intentional.” J.A. 31. Gary was not informed that an
additional element of the offense was that “he knew he
had the relevant status when he possessed [the firearm].” Rehaif, 139 S. Ct. at 2194. The district court
accepted Gary’s plea and sentenced him to 84 months on
each count, to run concurrently.

1

The state law charges against Gary were nolle prossed.

4a
Gary appealed his sentence to this Court. 2 During
the pendency of his appeal, Gary filed a letter pursuant
to Federal Rule of Appellate Procedure 28( j) asserting
that the Supreme Court’s recent decision in Rehaif, 139
S. Ct. at 2191, is relevant to his appeal. See Fed. R.
App. P. 28( j). Gary further noted that this Court, sitting en banc, heard oral argument in Lockhart, in which
counsel argued the impact of Rehaif on the defendant’s
guilty plea. Gary asserted that Rehaif, as well as this
Court’s opinion in Lockhart, would likely impact his case
because he pled guilty to two counts of possession of a
firearm after having been convicted of a felony in violation of 18 U.S.C. § 922(g)(1) without being informed, as
required by Rehaif, that an element of his offense was
that he knew his prohibited status at the time he possessed the firearm.
We invited the parties to file supplemental briefs addressing what impact, if any, Rehaif may have on Gary’s
convictions.3 This Court has since decided Lockhart,
At sentencing, the district court, over Gary’s objection, imposed
a four-level specific offense enhancement for possessing a gun in
connection with another felony offense—possession with intent to
distribute marijuana—based on the “large amount” of marijuana
Dixon possessed on June 16, 2017. Gary objected to the enhancement on the grounds that (1) he had no knowledge of the marijuana,
(2) Dixon, not Gary, was charged with possession with intent to distribute the marijuana, and (3) Dixon admitted the marijuana was his.
Because we find that the invalidity of Gary’s guilty plea is dispositive
of this appeal, we cannot and do not address the appropriateness of
any sentence imposed based on the plea.
3
“[W]hen an intervening decision of this Court or the Supreme
Court affects precedent relevant to a case pending on direct appeal,
an appellant may timely raise a new argument, case theory, or claim
based on that decision while his appeal is pending without triggering
the abandonment rule.” United States v. White, 836 F.3d 437, 4432

5a
but limited its holding to its unique facts, finding that
the two errors committed in Lockhart’s case—the failure to properly advise him of his sentencing exposure
under the Armed Career Criminal Act, 18 U.S.C.
§ 924(e), and the Rehaif error—“in the aggregate” were
sufficient to establish prejudice for purposes of plain error review. Lockhart, 947 F.3d at 197. We answer today the question Lockhart did not: “whether a standalone Rehaif error requires automatic vacatur of a defendant’s [guilty] plea, or whether such error should be
reviewed for prejudice under [United States v.] Olano[,
507 U.S. 725, 732 (1993)].” Lockhart, 947 F.3d at 196.
We find that a standalone Rehaif error satisfies plain
error review because such an error is structural, which
per se affects a defendant’s substantial rights. We further find that the error seriously affected the fairness,
integrity and public reputation of the judicial proceedings and therefore must exercise our discretion to correct the error.
II.
Because Gary did not attempt to withdraw his guilty
plea in the district court, we review his plea challenge
for plain error. United States v. McCoy, 895 F.3d 358,
364 (4th Cir. 2018). To succeed under plain error review,
a defendant must show that: (1) an error occurred; (2)
the error was plain; and (3) the error affected his substantial rights. Olano, 507 U.S. at 732; United States
v. Knight, 606 F.3d 171, 177 (4th Cir. 2010). We retain
the discretion to correct such an error but will do so only
if the error “seriously affects the fairness, integrity or
public reputation of judicial proceedings.” Olano, 507
44 (4th Cir. 2016), abrogated on other grounds by United States v.
Stitt, 139 S. Ct. 399 (2018).

6a
U.S. at 732 (internal quotation marks omitted). With
this standard in mind, we turn to the instant case.
Gary argues the first two prongs of plain error analysis are established by the decision in Rehaif itself—
that an error occurred and that it was plain. He contends that the third prong, which requires Gary to show
an effect on his substantial rights, is satisfied as well.
Without notice that the government was required to
prove an additional element not previously disclosed at
the time of his guilty plea, Gary argues that he could not
have knowingly and intelligently pled guilty, rendering
his plea constitutionally invalid. 4
The government concedes that the district court committed plain error in failing to inform Gary of the Rehaif
element, but contends that omission of this element
from the plea colloquy did not affect Gary’s substantial
rights because there is overwhelming evidence that he

Gary also states that the government’s omission of the knowledgeof-status element from his indictment further supports a finding that
he was not informed of the true nature of the offense and therefore
could not knowingly and intelligently plead guilty. Appellee’s
Supp. Br. 7. He contends that a conviction based on an indictment
where neither the grand jury nor the defendant was informed of all
the elements of the offense, together with the omission of the same
element from both the indictment and the plea colloquy, affected his
substantial rights. Id. at 8. Beyond these statements, however,
Gary presents no argument regarding the sufficiency of his indictment or whether it constitutes a separate ground for the vacatur of
his guilty plea. As “[i]t is not the practice of this court to consider
an argument that has not been developed in the body of a party’s
brief,” Gary’s failure to address the validity of the indictment is
deemed an abandonment of the issue.
Kinder v. White, 609
F. App’x 126, 133 (4th Cir. 2015); see also Fed. R. App. P. 28(a)(8)(A);
White, 836 F.3d at 443.
4

7a
knew of his felony status prior to possessing the firearms. 5 The government also notes that since Rehaif
was decided, numerous circuits applying Olano’s plain
error standard have determined that there is no effect
on a defendant’s substantial rights where the evidence
shows that the defendant knew of his status as a prohibited person at the time of his gun possession. See, e.g.,
United States v. Burghardt, 939 F.3d 397, 404 (1st Cir.
2019) (plain error did not affect substantial rights where
there was “overwhelming proof ” defendant had previously been sentenced to more than one year in prison). 6
In support of its argument, the government notes that Gary’s
presentence report lists a 2014 conviction for second degree burglary, for which Gary was sentenced to eight years suspended upon
service of three years. Three of those eight suspended years were
later revoked for a probation violation. And at the time of that conviction, Gary had already served 691 days in custody and received
credit for time served for the burglary charge. J.A. 107-113.
6
See also, e.g., United States v. Denson, 774 F. App’x 184, 184-85
(5th Cir. 2019) (unpublished) (error did not affect substantial rights
where defendant stipulated he had been convicted of a felony offense
before possessing a firearm); United States v. Bowens, 938 F.3d 790,
797 (6th Cir. 2019) (“defendants cannot show that but for the error,
the outcome of the proceeding would have been different”); United
States v. Williams, 946 F.3d 968, 973 (7th Cir. 2020) (finding no effect on substantial rights where defendant served over a decade in
prison for murder before committing firearm offense); United States
v. Hollingshed, 940 F.3d 410, 415-16 (8th Cir. 2019) (substantial
rights not affected where defendant sentenced to 78 months and
served four years and thus had to have been aware of his felony status); United States v. Benamor, 937 F.3d 1182, 1189 (9th Cir. 2019)
(substantial rights prong not met where defendant spent nine years
in prison on various felony convictions before his firearm arrest);
United States v. Reed, 941 F.3d 1018, 1021-22 (11th Cir. 2019) (defendant failed to establish errors affected his substantial rights
where he had eight previous felony convictions and had served at
5

8a
But the decisions cited by the government are distinguishable from Gary’s case in at least one key respect—
the courts did not consider whether the district court’s
acceptance of a guilty plea without informing the defendant of every element of the offense was a constitutional error that rendered his guilty plea invalid. Consequently, no circuit has yet addressed the question of
whether this error is a structural error that affects the
substantial rights of the defendant. We find that Gary
did not knowingly and intelligently plead guilty because
he was not fully informed during his plea colloquy of the
elements the government had to prove to convict him of
the § 922(g) offenses, and that this type of error—this
denial of due process—is a structural error that requires the vacatur of Gary’s guilty plea and convictions.
III.
A.
We agree with the parties that the first two prongs of
Olano plain error review have been met by the district
court’s failure to give Gary notice of the Rehaif element
of the § 922(g) offense. First, the district court’s acceptance of Gary’s plea was error. Federal Rule of
Criminal Procedure 11 requires that before accepting a
plea of guilty, the court must inform a defendant of, and
confirm that he understands, the nature of the charge to
which he is pleading. Fed. R. Crim. P. 11(b)(G). Rule
11’s purpose is to ensure that a defendant is fully informed of the nature of the charges against him and the
consequences of his guilty plea. See Fed. R. Crim. P.
11(b). Certainly, the district court’s acceptance of Gary’s
least 18 years in prison before he was arrested for possession of a
firearm).

9a
plea without informing him the government was required to prove an additional element was error that violated the requirements of Rule 11. See Lockhart, 497
F.3d at 196.
Moreover, the error was plain. To be “plain,” an error must be “clear or obvious at the time of appellate
consideration.” Ramirez-Castillo, 748 F.3d at 215 (citations and internal quotation marks omitted); see also
Olano, 507 U.S. at 734; Henderson, 133 S. Ct. at 1130
(internal quotation marks omitted). An error is clear
or obvious “if the settled law of the Supreme Court or
this circuit establishes that an error has occurred.”
Ramirez-Castillo, 748 F.3d at 215 (citing United States
v. Carthorne, 726 F.3d 503, 516 (4th Cir. 2013)).
This was the case here. At the time of Gary’s guilty
plea, the parties and the district court relied on this
Court’s decision in United States v. Langley, 62 F.3d
602, 606 (4th Cir. 1995) (en banc), abrogated by Rehaif,
139 S. Ct. at 2191, wherein this Court had held that
knowledge of one’s prohibited status was not a required
element of a § 922(g) offense. But after the Supreme
Court rendered its decision in Rehaif, and while Gary’s
appeal was pending, this Court decided Lockhart, holding that it is plain error to accept a guilty plea based
on a pre-Rehaif understanding of the elements of a
§ 922(g)(1) offense. Lockhart, 947 F.3d at 196. These
cases now represent the settled law by which this Court
must measure whether the error is “plain” at the time of
Gary’s appeal. Ramirez-Castillo, 748 F.3d at 215. In
light of the Supreme Court’s decision in Rehaif, and this
Court’s determination in Lockhart, we conclude the error in this case is plain.

10a
B.
Having established that the first two prongs have
been met, we must consider whether Gary has established the third prong of an Olano inquiry—that the error affected his substantial rights. See Olano, 507 U.S.
at 732.
1.
The government argues that although the court’s
failure to inform Gary of the additional element of the
offense was error, it did not affect his substantial rights
because there is overwhelming evidence in the record
that he was aware he had been convicted of a crime punishable by imprisonment for a term exceeding one year
at the time he possessed the firearms, including a felony
burglary conviction for which he served 691 days in custody. Thus, according to the government, Gary has not
demonstrated a reasonable probability that, but for the
error, he would not have pled guilty.
In response, Gary argues that his guilty plea is “constitutionally invalid” because the court misinformed him
regarding the elements of his offense. Relying on Supreme Court precedent, he contends that a constitutionally invalid plea affects substantial rights as a per se
matter and supports the conclusion that a defendant
need not make a case-specific showing of prejudice even
in the face of overwhelming evidence that he would have
pled guilty.
Further, Gary asserts that the district court’s error
in accepting his unintelligent guilty plea is structural because it infringed upon his autonomy interest in “mak[ing]
his own choices about the proper way to protect his
own liberty.” Weaver v. Massachusetts, 137 S. Ct.

11a
1899, 1907-08 (2017). He contends this violation is comparable to the infringement that occurs when a defendant is denied the right to self-representation or the right
to the counsel of his choice—and therefore affects his
substantial rights regardless of the strength of the prosecution’s evidence or whether the error affected the ultimate outcome of the proceedings.
We find Gary’s argument persuasive. “In most
cases,” the phrase “affects substantial rights” means
that “the error must have been prejudicial”—that is,
“[i]t must have affected the outcome of the district court
proceedings.” Ramirez-Castillo, 748 F.3d at 215 (citing Olano, 507 U.S. at 734). Stated differently, to establish that a Rule 11 error has affected substantial
rights, a defendant must “show a reasonable probability
that, but for the error, he would not have entered the
plea . . . [and] satisfy the judgment of the reviewing
court, informed by the entire record, that the probability of a different result is ‘sufficient to undermine the
confidence in the outcome’ of the proceeding.” United
States v. Dominguez Benitez, 542 U.S. 74, 83 (2004) (citing Strickland v. Washington, 466 U.S. 668, 694 (1984)).
But the Supreme Court has recognized that a conviction based on a constitutionally invalid guilty plea cannot
be saved “even by overwhelming evidence that the defendant would have pleaded guilty regardless.” Dominguez
Benitez, 542 U.S. 74, 84 n.10. For example, in Bousley
v. United States, 523 U.S. 614 (1998), the Supreme Court
held that a guilty plea is constitutionally valid only to the
extent it is “voluntary” and “intelligent.” Id. at 618.
A plea does not qualify as intelligent unless a criminal
defendant first receives “real notice of the true nature
of the charge against him, the first and most universally

12a
recognized requirement of due process.” Id. (citing
Smith v. O’Grady, 312 U.S. 329, 334 (1941)). Similarly,
in Henderson v. Morgan, 426 U.S. 637, 645 (1976), the
Supreme Court invalidated a guilty plea to second degree murder where the defendant was not informed of
the mens rea requirement. Such a plea, the Court
held, could not support a judgment of guilt unless it was
“voluntary in a constitutional sense,” and the plea could
not be voluntary, i.e. an intelligent admission that he
committed the offense, unless the defendant received
“real notice of the true nature of the charge against
him.” Id. at 645-46. The Court assumed the prosecutor had overwhelming evidence of the defendant’s guilt,
but found that nothing in the record, not even the defendant’s admission that he killed the victim, could substitute for a finding or voluntary admission that he had
the requisite intent. Id. at 646; see also United States
v. Mastrapa, 509 F.3d 652, 660 (4th Cir. 2007) (defendant’s misunderstanding of what was necessary to find
him guilty of the offense “resulted in a flawed guilty plea
that affected [his] substantial rights.”).
Gary’s argument is supported by the Supreme Court’s
long-held view that there is “a special category of forfeited errors that can be corrected regardless of their
effect on the outcome,” and that “not in every case” does
a defendant have to “make a specific showing of prejudice to satisfy the ‘affecting substantial rights’ prong.
. . . ” Olano, 507 U.S. at 735. This Court has recognized that this language refers to “structural errors.”
United States v. David, 83 F.3d 638, 647 (4th Cir.1996);
see also United States v. Marcus, 560 U.S. 258, 263
(2010) (certain “structural errors” might affect substantial rights regardless of their actual impact on an appellant’s trial); United States v. White, 405 F.3d 208, 221

13a
(4th Cir. 2005) (Olano recognizes a “special category of
unpreserved errors . . . that may be noticed ‘regardless of their effect on the outcome’ ”). Such errors
are referred to as “structural” because they are “fundamental flaws” that “undermine[] the structural integrity
of [a] criminal tribunal.” See Vasquez v. Hillery, 474
U.S. at 263-64.
“The purpose of the structural error doctrine is to ensure insistence on certain basic, constitutional guarantees that should define the framework of any criminal
trial. Thus, the defining feature of a structural error is
that it ‘affect[s] the framework within which the trial
proceeds,’ rather than being ‘simply an error in the trial
process itself.’ ” Weaver, 137 S. Ct. at 1907-08 (citing Arizona v. Fulminante, 499 U.S. 279, 310 (1991)). Structural errors are “defects in the constitution of the trial
mechanism which defy analysis by ‘harmless-error’
standards,” Fulminante, 499 U.S. at 309, and “deprive
defendants of ‘basic protections’ without which ‘a criminal trial cannot reliably serve its function as a vehicle for
determination of guilt or innocence . . . and no criminal punishment may be regarded as fundamentally
fair.’ ” Neder v. United States, 527 U.S. 1, 8-9 (1999)
(quoting Rose v. Clark, 478 U.S. 570, 577-78 (1986)).
The Supreme Court has identified a “limited class” of
errors as structural. Johnson v. United States, 520 U.S.
461, 468-69 (1997). See, e.g., McCoy v. Louisiana, 138
S. Ct. 1500 (2018) (attorney admission of defendant’s
guilt over defendant’s objection); Sullivan v. Louisiana,
508 U.S. 275 (1993) (erroneous reasonable-doubt instruction); Vasquez, 474 U.S. at 254 (racial discrimination in selection of grand jury); Waller v. Georgia, 467
U.S. 39 (1984) (violation of the right to a public trial);

14a
McKaskle v. Wiggins, 465 U.S. 168 (1984) (right to selfrepresentation at trial); Gideon v. Wainwright, 372 U.S.
335 (1963) (total deprivation of counsel); Tumey v. Ohio,
273 U.S. 510 (1927) (lack of an impartial trial judge).
“The precise reason why a particular error is not amenable to [harmless error] analysis—and thus the precise
reason why the Court has deemed it structural—varies
in a significant way from error to error,” Weaver, 137 S.
Ct. at 1907-08, but the Supreme Court has adopted at
least three broad rationales for identifying errors as
structural.
First, an error has been deemed structural in instances where “ ‘the right at issue is not designed to protect the defendant from erroneous conviction but instead protects some other interest,’ such as ‘the fundamental legal principle that a defendant must be allowed
to make his own choices about the proper way to protect
his own liberty.’ ” McCoy, 138 S. Ct. at 1511 (quoting
Weaver, 137 S. Ct. at 1908). Deprivations of the Sixth
Amendment right to self-representation are structural
errors not subject to harmless error review because
“[t]he right is either respected or denied; its deprivation
cannot be harmless.” McCoy, 138 S. Ct. at 1511 (quoting McKaskle, 465 U.S. at 177 n.8).
Second, an error has been deemed structural if the
effects of the error are simply too hard to measure; i.e.
where “the precise ‘effect of the violation cannot be ascertained.’ ” United States v. Gonzalez-Lopez, 548 U.S.
140, 149 n.4 (quoting Vasquez, 474 U.S. at 263). Such
is the case where the consequences of a constitutional
deprivation “are necessarily unquantifiable and indeterminate,” Gonzalez-Lopez, 548 U.S. at 150. For example, when a defendant is denied the right to select his or

15a
her own attorney, the government will, as a result, find
it almost impossible to show that the error was “harmless beyond a reasonable doubt.” Weaver, 137 S. Ct. at
1908 (citing Chapman v. California, 386 U.S. 18, 24
(1967)).
“Third, an error has been deemed structural if the
error always results in fundamental unfairness,” such as
in the denial of the right to an attorney in Gideon, 372
U.S. at 343-45, or in the failure to give a reasonable
doubt instruction as in Sullivan, 508 U.S. at 279. In
these circumstances, it “would therefore be futile for the
government to try to show harmlessness.” Weaver,
137 S. Ct. at 1908.
These three categories are not rigid; more than one
of these rationales may be part of the explanation for
why an error is deemed structural. Weaver, 137 S. Ct.
at 1908. Thus, an error can count as structural even if
the error does not lead to fundamental unfairness in
every case. Id., see Gonzalez-Lopez, 548 U.S. at 149,
n.4 (rejecting the idea that structural errors “always or
necessarily render a trial fundamentally unfair and unreliable”).
2.
The Supreme Court has expressly reserved the question of whether structural errors automatically satisfy
the third prong of Olano, see Puckett v. United States,
556 U.S. 129, 140-41 (2009), but this Court has held that
such errors necessarily affect substantial rights, satisfying Olano’s third prong. 7 See David, 83 F.3d at 647
We acknowledge that not every Rule 11 violation resulting in a
constitutional error requires the automatic reversal of a conviction.
But a Rule 11 error is not harmless when it affects a defendant’s
7

16a
(failure to instruct jury on an element of the offense is
within the “special category” of forfeited errors). Therefore, if an error is determined to be structural, the third
prong of Olano is satisfied. Ramirez-Castillo, 748
F.3d at 215. Against this backdrop, we must determine
whether the constitutional error in this case is a structural error that satisfies the third prong of an Olano inquiry.
Under each of the Supreme Court’s rationales, we
find the district court’s error is structural. First, the
error violated Gary’s right to make a fundamental choice
regarding his own defense in violation of his Sixth Amendment autonomy interest. Indeed, the Sixth Amendment contemplates that “the accused . . . is the master of his own defense,” and thus certain decisions, including whether to waive the right to a jury trial and to
plead guilty, are reserved for the defendant. McCoy,
138 S. Ct. at 1508.
Gary had the right to make an informed choice on
whether to plead guilty or to exercise his right to go to
trial. In accepting Gary’s guilty plea after misinforming him of the nature of the offense with which he was
charged, the court deprived him of his right to determine the best way to protect his liberty. Gary need
not demonstrate prejudice resulting from the error because harm to a defendant is irrelevant to the principles
underlying his autonomy right and liberty interests.

substantial rights. See Fulminante, 499 U.S. at 306 (citing Chapman, 386 U.S. at 21-22); see Fed. R. Crim P. 11(h). Indeed, structural errors affect the “entire conduct of the trial from beginning to
end,” and therefore cannot be harmless. Fulminante, 499 U.S. at
309.

17a
McKaskle, 465 U.S. at 177 n.8. Thus, the error is structural regardless of the strength of the prosecution’s evidence or whether the error would have affected the ultimate outcome of the proceedings. Id.
Further, we find that the district court’s error is
structural because the deprivation of Gary’s autonomy
interest under the Fifth Amendment due process clause
has consequences that “are necessarily unquantifiable
and indeterminate,” see Gonzalez-Lopez, 548 U.S. at 150,
rendering the impact of the district court’s error simply
too difficult to measure. See id. at 149 n.4 (quoting
Vasquez, 474 U.S. at 263) (finding structural error
where “the precise ‘effect of the violation cannot be ascertained.’ ”)
Here, as in Gonzalez-Lopez, “we rest our conclusion
of structural error upon the difficulty of assessing the
effect of the error.” 548 U.S. at 149 n.4; see also Waller, 467 U.S. at 49 n.9 (error not subject to harmless error review where the benefits of the right infringed “are
frequently intangible, difficult to prove, or a matter of
chance.”). The error here occurred in the context of a
guilty plea and thus is not the type of error that “ ‘may
be quantitatively assessed in the context of other evidence presented [at trial] in order to determine whether
[the error was] harmless beyond a reasonable doubt.’ ”
Gonzalez-Lopez, 548 U.S. at 148 (citing Fulminante, 499
U.S. at 307-08). And unlike Rule 11 errors amounting
to “small errors or defects that have little if any, likelihood of having changed the result of the [proceeding],”
see Chapman, 386 U.S. at 22, the impact of this error—
an undisputed constitutional violation where Gary was
misinformed about the nature of the charges against

18a
him—is instead the type that is fundamental to the judicial process. When Gary pled guilty, he waived, among
other rights, his right to a trial by jury, his privilege
against self-incrimination, and his right to confront his
accusers. The impact of his unknowing waiver of his
trial rights based on an unconstitutional guilty plea, just
like the denial of other trial rights previously identified
by the Supreme Court as structural error, is unquantifiable. It is impossible to know how Gary’s counsel, but
for the error, would have advised him, what evidence
may have been presented in his defense, and ultimately
what choice Gary would have made regarding whether
to plead guilty or go to trial. With no way to gauge the
intangible impact that results from a guilty plea premised on a constitutional violation, see Waller, 467 U.S. at
49 n.9, we “find it almost impossible to show that the error was ‘harmless beyond a reasonable doubt.’ ” Weaver,
137 S. Ct. at 1908 (citing Chapman, 386 U.S. at 24).
Finally, we independently find the error is structural
on the ground that fundamental unfairness results when
a defendant is convicted of a crime based on a constitutionally invalid guilty plea. Gary waived his trial rights
after he was misinformed regarding the nature of a § 922
offense and the elements the government needed to
prove to find him guilty. Indeed, under the provisions
of § 922(g), “the defendant’s status is the ‘crucial element’
separating innocent from wrongful conduct.” Rehaif,
139 S. Ct. at 2197 (citing United States v. X-Citement
Video, Inc., 513 U.S. 64, 73 (1994). Yet the district
court failed to inform Gary that knowledge of his prohibited status was an element of the offense, denying
him any opportunity to decide whether he could or
desired to mount a defense to this element of his
§ 922(g)(1) charges—as it was his sole right to do.

19a
Thus, in accepting his uninformed plea, the court denied
Gary’s right to make a knowing and intelligent decision
regarding his own defense.
Regardless of evidence in the record that would tend
to prove that Gary knew of his status as a convicted
felon, it is in the interest of justice that Gary knowingly
and intelligently “engag[e] in the calculus necessary to
enter a plea on which this Court can rely in confidence.”
Lockhart, 947 F.3d at 197. Any conviction resulting from
a constitutionally invalid plea “cannot reliably serve its
function as a vehicle for determination of guilt or innocence, . . . and no criminal punishment [based on
such a plea] may be regarded as fundamentally fair.”
See Neder, 527 U.S. at 8-9 (quoting Rose, 478 U.S. at
577-78).
Accordingly, we conclude that the district court’s
constitutional error is structural and affects Gary’s substantial rights, satisfying the third prong of the Olano
inquiry.
C.
Finally, having found that Gary has satisfied the
three prongs under Olano, this Court must determine
whether it should exercise its discretion to correct the
error. 507 U.S. at 732. The fact that the district court’s
error affected Gary’s substantial rights does not alone
warrant the exercise of our discretion. We are “not obligated to notice even structural error on plain error review.” Id. at 737. We exercise our discretion on plain
error review only when “the error seriously affect[s] the
fairness, integrity or public reputation of judicial proceedings.” Id. at 736. “Central to this inquiry is a de-

20a
termination of whether, based on the record in its entirety, the proceedings against the accused resulted in a
fair and reliable determination of guilt.” RamirezCastillo, 748 F.3d at 217 (citing United States v. Cedelle,
89 F.3d 181, 186 (4th Cir. 1996)).
The Fifth Amendment guarantees a criminal defendant due process in the course of criminal proceedings
that could deprive him of life, liberty, or property. U.S.
Const., amend. V. Although trial by jury is guaranteed
specifically by the Sixth Amendment, the right is often
waived through the court’s acceptance of a guilty plea.
A guilty plea is by far the most common criminal proceeding, rendering it “indispensable in the operation of
the modern criminal justice system.” See Dominguez
Benitez, 542 U.S. at 75. Indeed, the vast majority of
federal criminal cases are resolved through guilty pleas.
In fiscal year 2018, nearly 90% of federal criminal defendants nationwide pled guilty. Judicial Business—
September 2018, Table D-4, available at https://www.
uscourts.gov/statistics/table/d-4/judicial-business/2018/
09/30 (last viewed Mar. 9, 2020) (saved as ECF opinion
attachment). Within the Fourth Circuit the percentage is even greater—96.4 percent. See U.S. Sentencing Commission, “Statistical Information Packet, Fiscal Year 2018, Fourth Circuit,” Table 2, available at https://
www.ussc.gov/research/data-reports/geography/2018federal-sentencing-statistics (last viewed Mar. 9, 2020)
(saved as ECF opinion attachment).
Accordingly, the integrity of our judicial process demands that each defendant who pleads guilty receive the
process to which he is due. It is the duty of the court
to ensure that each defendant who chooses to plead guilty enters a knowing and voluntary plea.

21a
The impact of a guilty plea upon a defendant’s fundamental rights cannot be overstated. An individual’s
choice to plead guilty is his alone to make—after he has
been fully informed by the nature of the charges against
him and the consequences of his plea. The waiver of
Fifth and Sixth Amendment trial rights based on a constitutionally invalid plea undermines the credibility and
public reputation of judicial proceedings and fails to foster confidence that they will result in a “fair and reliable
determination of guilt” rather than a conviction obtained
contrary to constitutional principles. Even where evidence in the record might tend to prove a defendant’s
guilt, his right to due process when pleading guilty must
remain paramount. See Cedelle, 89 F.3d at 186 n.4 (recognizing that “circumstances may exist where the proceedings contain an error that seriously affects the fairness, integrity, or public reputation of the judiciary even
though the record demonstrates that the defendant is
guilty”).
We recognize that there is an importance in respecting the finality of guilty pleas and the laudable purpose
they serve as part of our criminal justice system. Indeed, our system encourages guilty pleas; they benefit
both defendants, for whom they may result in lesser
penalties and the dismissal of additional charges, and
the government, which favors judicial economy. Accordingly, we must proceed with caution when permitting their vacatur. But the structural integrity of the
judicial process is not only at stake but undermined
when we permit convictions based on constitutionally invalid guilty pleas to stand. There should be no instance
where such a plea is accepted for the sake of obtaining a
conviction, particularly where a defendant who did not

22a
receive notice of the true nature of an offense might unknowingly forgo the opportunity to raise an available defense.
As Olano makes clear, a reviewing court should exercise its discretion to grant plain error review “in those
circumstances in which a miscarriage of justice would
otherwise result.” 507 U.S. at 736. But justice is not
only a result. In criminal proceedings where life and
liberty are at stake, it is certainly our intent that “justice” be achieved in the result, but it is our mandate that
“justice” be achieved in the process afforded the accused. To allow a district court to accept a guilty plea
from a defendant who has not been given notice of an
element of the offense in violation of his Fifth Amendment due process rights “would surely cast doubt upon
the integrity of our judicial process. . . . ” See
Mastrapa, 509 F.3d at 661. We cannot envision a circumstance where, faced with such constitutional infirmity and deprivation of rights as presented in this case,
we would not exercise our discretion to recognize the error and grant relief.
We therefore hold that the district court’s erroneous
acceptance of a constitutionally invalid guilty plea “seriously affects the fairness, integrity or public reputation
of judicial proceedings.” Olano, 507 U.S. at 732. Accordingly, we exercise our discretion to notice the error
and vacate Gary’s guilty plea and convictions.

23a
IV.
For these reasons, we vacate Gary’s plea and convictions, and remand the case to the district court for further proceedings.
VACATED AND REMANDED

24a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4578
(3:17-cr-00809-JFA-1)
UNITED STATES OF AMERICA, PLAINTIFF-APPELLEE
v.
MICHAEL ANDREW GARY, DEFENDANT-APPELLANT
Filed: July 7, 2020
ORDER

Appellee filed a petition for rehearing en banc, and
Appellant filed a response in opposition. The petition
and response were circulated to the full Court. Judge
Richardson recused himself from the case. No member of the Court requested a poll on the petition for en
banc review. Therefore, the petition for rehearing en
banc is denied.
Entered at the direction of Chief Judge Gregory.
For the Court
/s/

PATRICIA S. CONNOR, Clerk
PATRICIA S. CONNOR

25a
WILKINSON, Circuit Judge, with whom Judges NIEMEYER, AGEE, Q UATTLEBAUM, and RUSHING join, concurring in the denial of rehearing en banc:
I concur in the denial of rehearing en banc for one
reason and one reason only. The panel’s holding is so
incorrect and on an issue of such importance that I think
the Supreme Court should consider it promptly. Any
en banc proceedings would only be a detour. Many,
many cases await the resolution of this question.
This court’s decision is far-reaching in its implications. It not only creates a circuit split of yawning proportions, but also an equally profound schism with the
Supreme Court’s whole approach to error review and remediation. Is it eight—or nine—circuits that disagree
with us? I have lost count, but the ranks are growing.*

Until now, no other circuit has treated a Rehaif error as structural when applying plain-error review. Rather, the circuits have
uniformly held that a defendant cannot show an effect on his substantial rights where the evidence shows that the defendant knew
of his status as a felon at the time of his gun possession. See
United States v. Burghardt, 939 F.3d 397, 403-05 (1st Cir. 2019);
United States v. Balde, 943 F.3d 73, 97 (2d Cir. 2019); United States
v. Denson, 774 F. App’x 184, 185 (5th Cir. 2019); United States v.
Hobbs, 953 F.3d 853, 857-58 (6th Cir. 2020); United States v. Williams, 946 F.3d 968, 973-75 (7th Cir. 2020); United States v. Hollingshed, 940 F.3d 410, 415-16 (8th Cir. 2019); United States v.
Fisher, 796 F. App’x 504, 510-11 (10th Cir. 2019); United States v.
McLellan, 2020 WL 2188875, at *6-7 (11th Cir. May 6, 2020); see
also United States v. Benamor, 937 F.3d 1182, 1189 (9th Cir. 2019).
Indeed, the Fifth Circuit has only recently rejected this court’s
structural error holding. United States v. Hicks, – F.3d –, 2020
WL 2301461, at *2 (5th Cir. May 8, 2020).
*

26a
In Rehaif v. United States, 139 S. Ct. 2191, 2194 (2019),
the Supreme Court held that the government must
prove that a defendant knew about his felony status as
an element of an 18 U.S.C. § 922(g) offense. Now our
court holds that Rehaif error is a structural error that
is not amenable to harmless or to plain-error review.
United States v. Gary, 954 F.3d 194, 200 (4th Cir. 2020).
Facts are so often the foundation of law. But the panel
opinion, put simply, takes flight from the facts in each
and every case.
The retreat from the facts is especially egregious
here. There is not a chance that Gary’s claim would
survive the third or fourth prongs of Olano or satisfy the
reasonable-probability test of Dominguez Benitez. Prior
to the instant felon-in-possession offenses, Gary was convicted of second-degree burglary and two counts of assault, each punishable by more than one year in prison.
For these offenses, he spent upwards of nine years in
prison. Moreover, at his sentencing hearing in 2017,
Gary admitted that he knew it was wrong for him to have
a firearm. The Rehaif error could thus not have affected his substantial rights because there is no possibility, not to mention a reasonable probability, that Gary
would not have pled guilty had he been informed of that
which the government could so easily have proven.
And as to the fourth prong of Olano, the question simply
answers itself. In other words, considering the facts
here, nothing about Gary’s Rehaif claim has so much as
a grain of merit.
The Supreme Court has made clear that structural
errors are few and far between. This point has been
made not once but repeatedly. The Court has found
structural error only in a “very limited class of cases,”

27a
Johnson v. United States, 520 U.S. 461, 468 (1997), and
has instead “adopted the general rule that a constitutional error does not automatically require reversal of a
conviction,” Arizona v. Fulminante, 499 U.S. 279, 306
(1991).
The narrow band of structural errors is distinct because they inherently taint the integrity of a trial from
beginning to end. See, e.g., United States v. GonzalezLopez, 548 U.S. 140, 150 (2006) (denial of right to counsel); Sullivan v. Louisiana, 508 U.S. 275, 281-82 (1993)
(defective reasonable-doubt instruction); Vasquez v.
Hillery, 474 U.S. 254, 263-64 (1986) (racial discrimination in grand jury selection); Tumey v. Ohio, 273 U.S.
510, 535 (1927) (lack of impartial judge).
Structural errors are to be limited, in other words, to
the kind of error that by itself invalidates the criminal
proceeding. See Weaver v. Massachusetts, 137 S. Ct.
1899, 1907 (2017) (defining structural error as one that
“affects the framework within which the trial proceeds,
rather than being simply an error in the trial process
itself ”) (internal markings and quotation omitted). A
denial of the right to counsel, racial bias in criminal justice proceedings, and an infirm reasonable doubt instruction are easily identified as the category of error
that sweeps across any particular offense, and speaks
overarchingly to the kind of flaws that any citizen would
instinctively know to be both unlawful and unfair. Put
otherwise, structural errors are innately infectious, necessarily impugning each part of a trial, rather than potentially consequential, depending on the facts and circumstances of a given case. Because such errors lack
a ready way to quantify their impact, they defy analysis
by harmless or plain-error review.

28a
A Rehaif error comes nowhere near this level. It is
not even close. Rather, it belongs with the large category of errors that the Court has deemed non-structural,
in recognition of the fact that the illusory search for perfection in the criminal justice process can so easily, as
the saying goes, become the enemy of the good. See,
e.g., Delaware v. Van Arsdall, 475 U.S. 673, 681-82
(1986) (holding that a restriction on defendant’s ability
to cross-examine witness in violation of Sixth Amendment was non-structural error); United States v. Hasting, 461 U.S. 499, 509 (1983) (same for improper remark
regarding defendant’s silence at trial in violation of
Fifth Amendment); Chambers v. Maroney, 399 U.S. 42,
52-53 (1970) (same for admission of evidence taken in violation of Fourth Amendment); see also Fulminante,
499 U.S. at 306-07 (collecting cases). To borrow from
the Van Arsdall Court, these cases stand for “the principle that the central purpose of a criminal trial is to decide the factual question of the defendant’s guilt or innocence, and promote[] public respect for the criminal
process by focusing on the underlying fairness of the
trial rather than on the virtually inevitable presence of
immaterial error.” Van Arsdall, 475 U.S. at 681.
Nor does Rehaif error gain admittance into the gallery of structural error because it pertains to an element
of a charge. I intend no disrespect to the Supreme
Court’s fine decision in Rehaif to note that the appearance of what our court now terms a structural defect has
come rather late in the day, after many decades of prior
practice to the contrary—a fact that should weigh not
only against retroactive review, but against recognition
of the error as a structural one as well.

29a
To that end, the Supreme Court has plainly resisted
the linkage between elements errors and structural
error. Take Neder v. United States, for example. 527
U.S. 1 (1999). There, the trial court incorrectly omitted from the jury instructions an element of the offense
charged against Neder. The Court squarely rejected
the argument that such an error was structural, and instead reviewed for harmless error because “an instruction that omits an element of the offense does not necessarily render a criminal trial fundamentally unfair or an
unreliable vehicle for determining guilt or innocence.”
Id. at 9. Indeed, time and again, the Court has applied
harmless error review to elements errors. See, e.g.,
Johnson, 520 U.S. at 468-69; California v. Roy, 519 U.S.
2, 5 (1996); Yates v. Evatt, 500 U.S. 391, 393 (1991);
Carella v. California, 491 U.S. 263, 266 (1989); Pope v.
Illinois, 481 U.S. 497, 502-503 (1987).
Moreover, there are many reasons to think that the
guilty plea context is an especially poor one for recognizing an elements error as structural. Indeed, the
Court has already decided as much. See Henderson v.
Morgan, 426 U.S. 637, 645-46 (1976) (surveying factual
record before vacating defendant’s plea on the ground
that he was misinformed as to a key element of the
charge against him); Bousley v. United States, 523 U.S.
614, 622-23 (1998) (applying fact-bound exceptions for
excusing procedural default to defendant’s claim that his
guilty plea was invalid because he was misinformed as
to the government’s burden of proof at time of his plea).
In fact, the guilty plea context is one in which the
Court has assiduously resisted automatic vacatur of a
plea. The standard for vacatur is quite fact-dependent.
It asks whether there is a “reasonable probability” that

30a
absent the error the defendant would not have entered
the plea. United States v. Dominguez Benitez, 542 U.S.
74, 83 (2004); see also id. at 81 n.6 (noting single Rule 11
error “not colorably structural”). I see no reason whatsoever why this standard, so widely adopted and so pervasively relied upon, should be rendered nugatory on
the basis of the kind or character of the error asserted
rather than its impact on the particular proceeding.
The Supreme Court’s standard stands in stark contrast
to the novel standard adopted in this case. The reasonable probability standard is conscientiously attentive to
facts. Our court’s opinion is wholly oblivious to them.
Furthermore, the guilty plea context is one where the
Supreme Court, again in contrast to this court, has been
especially attentive to finality. United States v. Davila,
569 U.S. 597, 608 (2013) (stressing the “particular importance of the finality of guilty pleas”) (internal markings and quotation omitted). The reason for the finality of guilty pleas could not be more evident or obvious.
Not only are they uniquely susceptible to buyer’s remorse; they rest on a well-understood tradeoff—one
where the defendant receives the certainty of present
benefits in exchange for forgoing the possibility of some
future benefit down the road. Rehaif is exactly the
sort of future decisional benefit a routine guilty plea ordinarily waives. The panel opinion now seeks to undo
all this. For if Rehaif is deemed structural, it could be
used to overturn a wealth of pleas at some future point
in time, given that the courts are more likely to give structural errors retroactive application.
The costs to criminal justice of the panel’s ruling are
immense. If they were offset by some gain in the administration of justice, that would be one thing. But,

31a
as Gary’s case shows, the vast majority of defendants
who will seek to take advantage of a structural Rehaif
error are perfectly aware of their felony status. Felony status is simply not the kind of thing that one forgets. It is, after all, a § 922(g) offense that one has pled
guilty to, a plea that would wholly lack a factual basis
before or after Rehaif if the defendant were not a felon.
For those very few who claim plausibly to be unaware of
their felony status, the reasonable probability standard
in Dominguez-Benitez stands ready to pick them up.
I hesitate to raise such a mundane consideration as
the resources available to judges and litigants in discussing this issue, but it remains the fact that the resources of our system are finite. The erosion of finality
in the context of such basic criminal offenses as § 922(g)
and 18 U.S.C. § 924(c) will strain the resources of the
lower federal courts in no small measure. Not only that,
but prosecutorial resources will be tested to the limits
by multitudes of defendants seeking to withdraw and renegotiate their pleas. Not only that, but the resources
of public defenders will be tested as well, as they try to
balance their obligations to existing clients who face serious charges and the legions of defendants who seek to
redo past bargains. We are adding not just one, but
two major burdens to our system. The first arises from
the sheer volume of guilty pleas. The second arises from
the fact that § 922(g) is at or near the top of our most
frequently charged criminal offenses.
In many instances, the reform of the criminal justice
system is salutary. The First Step Act is an example
of a long-overdue reform, see Pub. L. No. 115-391, 132
Stat. 5194 (2018), notwithstanding the fact that it adds
to the business of our justice system. But there are

32a
limits to the extent that each new twist and turn in decisional law should spark a crisis of volume in criminal justice administration.
Volume diminishes those qualities of conscientious
deliberation for which, I suspect, each of us who plays
some part in criminal justice proceedings would like to
be known. This court’s ruling is unfortunate in so many
ways. I respect the decisions of my colleagues, but I
do hope that the Supreme Court will undo the error here
and align us with the other circuits in our country.

33a
APPENDIX C

1.

18 U.S.C. 922(g) provides:

Unlawful acts

(g) It shall be unlawful for any person—
(1) who has been convicted in any court of, a crime
punishable by imprisonment for a term exceeding
one year;
(2)

who is a fugitive from justice;

(3) who is an unlawful user of or addicted to any
controlled substance (as defined in section 102 of the
Controlled Substances Act (21 U.S.C. 802));
(4) who has been adjudicated as a mental defective or who has been committed to a mental institution;
(5)

who, being an alien—

(A) is illegally or unlawfully in the United
States; or
(B) except as provided in subsection ( y)(2),
has been admitted to the United States under a
nonimmigrant visa (as that term is defined in section 101(a)(26) of the Immigration and Nationality
Act (8 U.S.C. 1101(a)(26)));
(6) who has been discharged from the Armed
Forces under dishonorable conditions;
(7) who, having been a citizen of the United States,
has renounced his citizenship;
(8)

who is subject to a court order that—

34a
(A) was issued after a hearing of which such
person received actual notice, and at which such
person had an opportunity to participate;
(B) restrains such person from harassing,
stalking, or threatening an intimate partner of
such person or child of such intimate partner or
person, or engaging in other conduct that would
place an intimate partner in reasonable fear of
bodily injury to the partner or child; and
(C)(i) includes a finding that such person represents a credible threat to the physical safety of
such intimate partner or child; or
(ii) by its terms explicitly prohibits the use,
attempted use, or threatened use of physical force
against such intimate partner or child that would
reasonably be expected to cause bodily injury; or
(9) who has been convicted in any court of a misdemeanor crime of domestic violence,
to ship or transport in interstate or foreign commerce,
or possess in or affecting commerce, any firearm or ammunition; or to receive any firearm or ammunition which
has been shipped or transported in interstate or foreign
commerce.
2.

18 U.S.C. 924(a)(2) provides:

Penalties

(2) Whoever knowingly violates subsection (a)(6),
(d), (g), (h), (i), ( j), or (o) of section 922 shall be fined as
provided in this title, imprisoned not more than 10 years,
or both.

35a
3.

Fed. R. Crim. P. 52 provides:

Harmless and Plain Error
(a) Harmless Error.

Any error, defect, irregularity, or variance that does not affect substantial rights
must be disregarded.
(b) Plain Error.

A plain error that affects substantial rights may be considered even though it was not
brought to the court’s attention.

